Final Report D-2010-023               December 3, 2009




          Review of Defense Technical Information
                  Center Internal Controls
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ASD(NII)/CIO          Assistant Secretary of Defense (Networks and Information
                         Integration)/Chief Information Officer
DOD FMR               DOD Financial Management Regulation
DTIC                  Defense Technical Information Center
IAC                   Information Analysis Center
IT                    Information Technology
OMB                   Office of Management and Budget
OSC                   Office of Special Counsel
SNaP-IT               Select and Native Programming Information Technology System
USD(AT&L)             Under Secretary of Defense for Acquisition, Technology, and
                          Logistics
USD(C)/CFO            Under Secretary of Defense (Comptroller)/ Chief Financial Officer
U.S.C.                United States Code
                                    INSPECTOR GENERAL 

                                  DEPARTMENT OF DEFENSE 

                                     400 ARMY NAVY DRIVE 

                                ARLINGTON, VIRGINIA 22202·4704 


                                                                           December 3, 2009

MEMORANDUM FOR DEPUTY SECRETARY OF DEFENSE
              UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
              UNDER SECRETARY OF DEFENSE (COMPTROLLER)
              ASSISTANT SECRETARY OF DEFENSE (LEGISLATIVE
                 AFFAIRS)
              ASSISTANT SECRETARY OF DEFENSE (NETWORKS AND
                 INFORMATION INTEGRATION)
              DEPARTMENT OF DEFENSE GENERAL COUNSEL

SUBJECT: 	 Review of Defense Teclmical Information Center Intel11al Controls
           (Report No. D-2010-023)

We arc providing this report tor your information and use. We performed the audit in response to
a request made by the Office of Special Counsel. We considered management comments on a
draft of the report in preparing the final report.

Comments on the draft of this report confonned to the requirements of DOD Directive 7650.3 and
left no unresolved issues. Therefore, we do not require any additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to me at (703) 601­
5868 (DSN 329-5868).




                                             f~ O.                   !lJcwJv
                                             Patricia A. Marsh, CP A
                                             Assistant Inspector General
                                             Defense Business Operations
Report No. D-2010-023 (Project No. D2009-D000FP-0158.000)                     December 3, 2009


               Results in Brief: Review of Defense Technical
               Information Center Internal Controls 


What We Did                                             We recommend that the Under Secretary of
                                                        Defense for Acquisition, Technology, and
The U.S. Office of Special Counsel referred
                                                        Logistics (USD[AT&L]) require DTIC to:
whistleblower allegations to the Secretary of
Defense. The Secretary delegated his                    		 Develop a process to accumulate actual
responsibility to the DOD Inspector General.                costs for the goods and services it provides
Our objective was to substantiate the validity of           and calculate a reimbursable fee rate that
the allegations and report the results in                   recovers actual costs.
accordance with section 1213(d), title 5, United        		 Periodically compare the collected
State Code.                                                 reimbursable fees to actual costs and adjust
                                                            the reimbursable rate as necessary.
What We Found                                           		 Return fee surpluses, if any, to its customers.
The following conditions require management             		 Comply with DOD policy by not including
attention. DTIC:                                            indirect costs as part of reimbursement
                                                            charges to DOD organizations.
		 Improperly charged indirect costs to its            		 Ensure that reimbursable fee purchases have
    customers in FY 2007 and FY 2008. As a                  a significant relationship to providing the
    result, DTIC violated the Economy Act,                  goods and services.
    augmented its budget, and may have
    overcharged its customers by $12.1 million          We recommend that the Assistant Secretary of
    in FY 2007 and $9.7 million in FY 2008.             Defense (Networks and Information
		 Did not report reimbursables and                    Integration)/Chief Information Officer
    reimbursable fees separately on any Under           ASD(NII)/CIO revise SNaP-IT to allow the
    Secretary of Defense (Comptroller)/Chief            reporting of IT expenditures funded with
    Financial Officer (USD[C]/CFO)                      reimbursable fees.
    management reports. As a result, the
    USD(C)/CFO was unaware that DTIC                    Management Comments and
    collected approximately $31.8 million and           Our Response
    $43.1 million in reimbursable fees for              The Under Secretary of Defense
    FY 2007 and FY 2008, respectively.                  (Comptroller)/Deputy Chief Financial Officer
		 Did not report Information Technology (IT)          agreed to revise the DOD FMR. In addition, he
    expenditures made with reimbursable fees in         will require DOD organizations to report
    the Select and Native Programming                   reimbursable fees separately. The Principal
    Information Technology System (SNaP-IT).            Deputy, Defense Research and Engineering will
                                                        establish a Review Board to implement our
What We Recommend                                       recommendations. The Acting ASD(NII)/CIO
We recommend that the USD(C)/CFO revise the             plans to conduct a study to determine whether
DOD Financial Management Regulation (FMR)               other DOD organizations are reporting IT
to state when an organization can charge                purchases made with reimbursable dollars. If
indirect costs to another DOD organization. We          material, they will establish a reporting process.
also recommend that the USD(C)/CFO require              Management comments were responsive to the
DOD organizations to report reimbursable fees           recommendations.
separately from reimbursables.


                                                    i
Report No. D-2010-023 (Project No. D2009-D000FP-0158.000)             December 3, 2009

Recommendations Table
Management                       Recommendations            No Additional Comment
                                 Requiring Comment          Required
Under Secretary of Defense                                  A.1, B.1, B.2.
(Comptroller)/ Chief Financial
Officer



Under Secretary of Defense for                              A.2.a.(1), A.2.a.(2),
Acquisition, Technology, and                                A.2.a.(3), A.2.a.(4),
Logistics                                                   A.2.a.(5), A.2.a.(6),
                                                            A.2.a.(7), A.2.b.(1),
                                                            A.2.b.(2).
Assistant Secretary of Defense                              C.
(Network and Information
Integration)




                                         ii
Table of Contents

Introduction                                                                  1      


      Objectives                                                              1      

      Background                                                              1       

      Defense Technical Information Center Profile                            2

      Review of Internal Controls                                             4


Finding A. Charging Actual Costs                                              5       


      Recommendations, Management Comments, and Our Response                  9


Finding B. Reporting Reimbursable Fees                                        11 


      Recommendations, Management Comments, and Our Response                  13 


Finding C. Reporting Information Technology Expenditures                      14 


      Recommendations, Management Comments, and Our Response                  15 


Appendix

      Scope and Methodology                                                   16          


Management Comments

      Director of Defense Research and Engineering                            17 


      Under Secretary of Defense Comptroller (Program/Budget) Deputy 

      Comptroller                                                             20         


      Assistant Secretary of Defense (Networks and Information Integration)   21 

Introduction
Objectives
Our objective was to substantiate the validity of allegations that employees at the Defense
Technical Information Center (DTIC) improperly used fees collected for Information
Analysis Center (IAC) programs for DTIC functions and activities that were unrelated to
the IAC programs. Another objective was to determine whether DTIC employees failed
to report the IAC monies in budget reports and in the Select and Native Programming
Information Technology System (SNaP-IT). Additionally, we were tasked to report the
results of our review to the U.S. Office of Special Counsel (OSC) in accordance with
section 1213(d), title 5, United States Code (5 U.S.C. § 1213[d]). See the Appendix for a
discussion of the Scope and Methodology.

Background
On February 3, 2009, the OSC referred allegations to the Secretary of Defense stating
that DTIC violated the Economy Act, augmented its budget, did not report its fee
collection and expenditures to oversight entities, and failed to report its IT expenditures.
OSC is authorized by 5 U.S.C. § 1213(a) and (b) to receive disclosures of information
from Federal employees alleging violations of law, rule, or regulation, gross
mismanagement, gross waste of funds, and abuse of authority, or a substantial and
specific danger to public health or safety. When OSC finds that there is a substantial
likelihood that one of these conditions exists, it is required to advise the appropriate
agency head, and the agency head is required to conduct an investigation of the
allegations and prepare a report, pursuant to 5 U.S.C. § 1213(c) and (g).

In this case, OSC concluded that there was a substantial likelihood that the information
provided by a Federal employee disclosed allegations covered by 5 U.S.C. § 1213, and it
referred the matter to the Secretary of Defense for investigation. OSC summarized the
whistleblower allegations as follows:

   		 DTIC did not charge actual costs for the goods and services it provided to DOD
       organizations and other customers. Therefore, DTIC violated the Economy Act.
       In addition, DTIC improperly augmented its budget by collecting reimbursable
       fees in excess of the actual costs it incurred.

   		 DTIC did not report the reimbursable fees it collected on the DOD Budget
       Estimate Submission or the President’s Budget as required, and, therefore, it did
       not report the reimbursable fees it collected to any oversight entities.

   		 DTIC did not report IT expenditures made with reimbursable fees on the Select
       and Native Programming Information Technology System (SNaP-IT).

The Secretary of Defense delegated his authority to review and sign the report to the
Inspector General.


                                              1


Defense Technical Information Center Profile
On June 4, 2004, DTIC was designated as a DOD Field Activity within the Under
Secretary of Defense for Acquisition, Technology, and Logistics (USD[AT&L]),
reporting to the Director of Defense Research and Engineering. DTIC’s overall mission
is to provide a centralized operation for the acquisition, retrieval, and dissemination of
technical information to the Defense community through IACs. DTIC is responsible for
managing the IAC Program, which consists of 10 different IACs. See Table 1 for a
listing of the IACs.

                            Table 1. Defense Technical Information Center,
                                 Information Analysis Centers
 Information
Analysis Center                          Name                           Prime Contractor
AMMTIAC                   Advanced Materials and Testing            Alion Science and
                                                                    Technology
                          Chemical, Biological, Radiological, and
CBRNIAC                   Nuclear                                   Battelle Memorial
CPIAC                     Chemical Propulsion                       Johns Hopkins University*
DACS                      Data and Analysis Center for Software     ITT
IATAC                     Information Assurance                     Booz Allen Hamilton
MSIAC                     Modeling and Simulation                   Alion Science and
                                                                    Technology
RIAC                      Reliability                               Wyle Labs
SENSIAC                   Sensor Technology                         Georgia Tech Research
                                                                    Institute*
SURVIAC                   Survivability/Vulnerability               Booz Allen Hamilton
WSTIAC                    Weapon Systems Technology                 Alion Science and
                                                                    Technology
*Academic institutions.

DTIC’s workforce consists of both Government and contract personnel with expertise in
technical information, IT, and program management. The IAC Program directorate is
one of eight DTIC directorates. See Table 2 for a listing of the directorates.

                Table 2. Defense Technical Information Center Directorates
               Directorate                        Name
               DTIC-A        Component Information Support
               DTIC-B        User Services and Marketing
               DTIC-D        Front Office Administration
               DTIC-E        Information Science and Technology
               DTIC-I        Information Analysis Center Program
               DTIC-O        Operations
               DTIC-R        Resource Management, Budgeting, and Finances
               DTIC-Z        Information Systems



                                                 2


The DTIC IACs’ reimbursable work has increased substantially during the past 4 fiscal
years. As shown in the figure, in FY 2005, for example, DTIC reimbursables totaled
approximately $398.3 million and have since increased every fiscal year. In FY 2008,
DTIC reimbursables totaled $1.09 billion. DTIC provides its IAC services using a
contracting task order called technical area task. DTIC applies a reimbursable fee to each
task. The reimbursable fee rate is to be set to recover the actual costs to the IACs.
During the year and from year to year, IACs may adjust the reimbursable fee as necessary
to recover changes in actual costs. DTIC currently charges its customers a 3.5-percent
reimbursable fee on IAC technical area tasks.

                         Figure. Defense Technical Information Center 

                               Reimbursables for FYs 2005-2008


                                                        DTIC Reimbursables


                                        $1,200
                                                                                  $1,085

                                        $1,000
                                                                          $873
                   Amount in Millions




                                         $800

                                                            $600
                                         $600

                                                 $398
                                         $400


                                         $200


                                           $0
                                                 2005        2006          2007    2008
                                                                 Fiscal Year
                                Reimbursables




During the 4 fiscal years, DTIC’s revenue from the IAC reimbursable fees for technical
area tasks, as compared with the total DTIC appropriations and reimbursable fees
collected, has increased from 19.1 percent to 44.9 percent. Reimbursable fees collected
represent a substantial portion of DTIC’s total funding. See Table 3 for the amounts and
percentages.

                   Table 3. Reimbursable Fees as a Percentage of


                             Total Funding (in millions) 

                Item               FY 2005    FY 2006      FY 2007                         FY 2008
     Fee Collected                    $10.0       $23.4       $31.8                           $43.1
     Appropriation                    $42.4       $49.3       $51.7                           $53.0
     Total Funding                    $52.4       $72.7       $83.5                           $96.1
     Fee as Percentage of Total      19.1%       32.2%       38.1%                           44.8%


                                                               3


Review of Internal Controls
We identified the following internal control weaknesses at the DTIC as defined by DOD
Instruction 5010.40, "Managers' Internal Control (MIC) Program Procedures," January 4,
2006.

   		 DTIC improperly charged indirect costs (overhead) for the goods and services it
       provided to DOD organizations and other customers in FY 2007 and FY 2008.
       Specifically, DTIC did not properly establish a reimbursable fee rate, improperly
       charged reimbursable fees to DOD organizations, and did not properly use
       reimbursable fees collected. Recommendations A.1, A.2.a.(1)-(7), and A.2.b, if
       implemented, will correct these internal control weaknesses.

   		 DTIC did not report reimbursable and reimbursable fees separately on any
       USD(C)/CFO management reports for FY 2007 and FY 2008. Recommendations
       B.1.-2, if implemented, will correct this internal control weakness.

   		 DTIC did not report IT expenditures made with reimbursable fees in SNaP-IT.
       Recommendation C, if implemented, will correct this internal control weakness.

We will send a copy of this report to the senior officials in charge of internal controls for
the Under Secretary of Defense(Comptroller)/Chief Financial Officer (USD[C]/CFO),
USD(AT&L), and the Assistant Secretary of Defense (Network and Information
Integration)/Chief Information Officer (ASD[NII]/CIO).




                                              4


Finding A. Charging Actual Costs
DTIC improperly charged indirect costs (overhead) for the goods and services it provided
to DOD organizations and other customers in FY 2007 and FY 2008. Specifically,
DTIC:

      did not properly establish a reimbursable fee rate,
      improperly charged reimbursable fees to DOD organizations, and
      did not properly use reimbursable fees collected.

These conditions occurred because DTIC management did not establish a systematic
process for accumulating actual indirect costs (overhead) incurred by its IACs.
In addition, DOD Instruction 4000.19 “Interservice and Intergovernmental Support,”
August 9, 1995, states indirect costs will not be included in reimbursement charges.
DOD Regulation 7000.14-R, DOD Financial Management Regulation (DOD FMR) did
not adequately address whether DOD agencies may charge indirect costs (overhead) to
other DOD organizations. Furthermore, DTIC did not ensure that actual indirect costs
had a significant relationship to providing the goods and services. As a result, DTIC
violated the Economy Act, augmented its budget, and may have overcharged its
customers by $12.1 million and $9.7 million in FY 2007 and FY 2008, respectively.

Charging Actual Costs for Goods and Services
DTIC improperly charged indirect costs (overhead) for the goods and services it provided
to DOD organizations and other customers in FY 2007 and FY 2008. Specifically, DTIC
did not properly establish a reimbursable fee rate, improperly charged reimbursable fees
to DOD organizations, and did not properly use reimbursable fees collected.

Reimbursable Fee Rate
DTIC did not properly establish a reimbursable fee rate. Instead, DTIC arbitrarily
established reimbursable fee rates based on a spreadsheet that had different revenue
scenarios. DTIC referred to the spreadsheet as its “spending plan.” The spreadsheet, or
spending plan, had a subheading called “Fees Used to Fund DTIC,” which listed
purchases that benefited all DTIC directorates. These were not fixed purchases, and
DTIC adjusted the plans for purchases based on the amount IACs generated from the
reimbursable fees. If the IACs generated more reimbursable revenue than expected,
DTIC management received more fees and allocated more fee monies to other DTIC
directorates.

This occurred because DTIC management did not have a systematic process for
accumulating actual indirect (overhead) costs incurred by its IACs. Therefore, DTIC was
unable to calculate a reimbursable fee rate to apply against its estimated reimbursable
work. Specifically, DTIC did not accumulate actual indirect cost in a cost pool to
calculate a reimbursable fee rate at the beginning of each fiscal year that recovers the
IAC Program’s actual costs for the fiscal year. In addition, DTIC did not periodically



                                           5


review the reimbursable fee rate throughout the fiscal year and adjust the rate as
necessary. Furthermore, DTIC did not return reimbursable fee surpluses to its customers.

Title 31 of the United States Code, “Money and Finance,” Section 1535, “Economy Act,”
is the principal statutory authority for one Federal agency to pay another Federal agency
for goods or services. The Economy Act states,
               Payments may be made in advance or on providing the goods or
               services and shall be for any part of the estimated or actual cost as
               determined by the agency or unit filling the order…. Proper adjustment
               of amounts paid in advance shall be made as agreed to by the heads of
               the agencies or units on the basis of the actual cost of goods or services
               provided.

DOD FMR, volume 11A, chapter 1, “General Reimbursement Procedures and Supporting
Documentation,” April 2008, states that if an organization has a significant amount of
reimbursable effort, such costs are accumulated in a cost pool and allocated to customers.
Indirect costs are sometimes referred to as overhead or general and administrative costs,
which consist of costs that cannot readily, or directly, be identified in the performance of
the customer order. Examples of such indirect costs are supervision, office supplies,
utility costs, and similar costs. Volume 11A, chapter 1, also requires indirect costs, such
as supervision, office supplies, utility costs, and similar costs, to be accumulated in a cost
pool.

DOD FMR, volume 11A, chapter 3, “Economy Act Orders,” February 2008, implements
the Economy Act for DOD. Chapter 3 states that actual costs include all direct costs
attributable to providing the goods or services and that benefit the requesting agency.

DTIC should develop, document, and implement a process for accumulating actual
indirect cost (overhead) incurred by its IACs. DTIC should also ensure that the new
process complies with DOD FMR, volume 11A, chapters 1 and 3. DTIC should calculate
a reimbursable fee rate at the beginning of each fiscal year to recover its estimated costs.
In addition, DTIC should review the reimbursable fee rate periodically throughout each
fiscal year and adjust as necessary. Additionally, DTIC should return reimbursable fee
surpluses to customers.

Charging Cost to DOD Organizations
DTIC improperly charged reimbursable fees to DOD organizations. Specifically, DTIC
improperly charged indirect costs to DOD organizations through the use of its
reimbursable fee rate. DOD Instruction 4000.19 states that indirect costs will not be
included in reimbursement charges. DOD FMR, volume 11A, chapters 1 and 3, state that
DOD organizations not funded by working capital funds normally do not charge indirect
costs to other DOD organizations. DTIC did not provide any documentation permitting it
to charge DOD organizations for indirect costs (overhead). The DOD FMR does not
provide adequate guidance on whether DOD organizations may charge indirect costs
(overhead) to other DOD organizations. Specifically, the DOD FMR is unclear on how
the term “normally” is defined. Different organizations may interpret these chapters



                                                   6


differently. The USD(C)/CFO should revise the DOD FMR, volume 11A, chapters 1
and 3, to state when a DOD organization is permitted to charge indirect costs to other
DOD organizations. In addition, the Under Secretary of Defense for Acquisition,
Technology, and Logistics, should require DTIC to follow DOD Instruction 4000.19.

Use of Fees
DTIC did not properly use reimbursable fees collected. We reviewed DTIC purchases
made in FY 2007 and FY 2008 for hardware, software, and services using IAC
reimbursable fees to verify their existence and determine whether the purchases had a
significant relationship to the IACs. Specifically, we selected a non-statistical sample of
fee purchases from DTIC’s spreadsheets, “All Other Directorates Unfunded Investment
Opportunities (UIO)” for FY 2007 and FY 2008. These spreadsheets list DTIC purchases
that benefit all of DTIC rather than the individual IACs. DTIC adjusts these purchases
based on the amount of reimbursable fees generated by the IACs.

Table 4 shows the number of items reviewed, the universe, and the dollar amount of our
sample for FY 2007 and FY 2008.

    Table 4. Sample of Purchases Made With Information Analysis Center Fees
              Fiscal     Number of       Total        Reviewed
              Year        Reviewed       Items         Amount
                            Items                    (in millions)
            2007              22           63            $9.5
            2008              18           90            $4.0
            Total             40          153            $13.5

None of the purchases we reviewed had a significant relationship with the IACs. DTIC
should not have paid $13.5 million for these 40 purchases with IAC fees. For example,
in FY 2007, DTIC purchased communication services, which consisted of cell phones,
telephones, and phone services; voicemail; Internet services, and 186 software licenses
for use in all DTIC directorates. In FY 2008, DTIC purchased 400 antivirus
subscriptions for use in all DTIC directorates, 162 computer monitors to replace existing
monitors in almost all directorates, and 2 microfiche scanners for use in DTIC’s
Operations directorate.

This occurred because DTIC management did not ensure that actual indirect costs
(overhead) had a significant relationship to providing the goods or services. DTIC
internal business rules stated that if a purchase benefits DTIC’s IT infrastructure, then it
should be 100-percent funded by reimbursable fees. General support for DTIC and the
IACs is 50-percent funded by reimbursable fees. However, DTIC internal business rules
did not provide adequate guidance for determining whether a planned purchase had a
significant relationship to providing the goods or services.

DOD FMR, volume 11A, chapter 3, implements the Economy Act for DOD. Chapter 3 

states that actual costs include all direct costs attributable to providing the goods or 



                                             7


services. Actual costs include indirect costs (overhead) to the extent they have a
significant relationship to providing the goods or services and benefit the requesting
agency.

The Defense Information Systems Agency General Counsel 1 agreed with this
interpretation of the Economy Act. On April 3, 1998, the General Counsel gave DTIC
management a legal opinion through the Defense Information Systems Agency
Comptroller, stating that the Economy Act requires indirect costs to the performing
agency to have a significant relationship to providing the goods and services to the
requesting agency. The opinion also stated that the focus of the Economy Act is on the
specific unit performing the services rather than on the larger organization to which the
performing unit belongs. The opinion concluded that each IAC is a performing unit for
Economy Act purposes even though all are under DTIC. Furthermore, the General
Counsel stated that DTIC could not use the fees collected to support one IAC’s costs to
support another IAC’s costs.

DTIC should develop an internal process to ensure that its reimbursable fee purchases
have a significant relationship to providing the goods and services. In addition, an
independent group internal or external to DTIC should periodically review this process.

Economy Act, Budget Augmentation, and Reimbursable Fees
Because DTIC did not charge actual costs for the goods and services it provided to DOD
organizations and other customers, DTIC violated the Economy Act and augmented its
budget. For example, DTIC overcharged its customers by $12.1 million and $9.7 million
in FY 2007 and FY 2008, respectively. These overcharge amounts represent the amounts
of purchases we reviewed for FY 2007 and FY 2008 ($9.5 million and $4 million,
respectively) that did not have a significant relationship with the IACs, plus the surpluses
DTIC had at the end of each fiscal year. DTIC had surpluses of $2.6 million and
$5.7 million at fiscal year-end for FY 2007 and FY 2008, respectively.

In addition, the remaining purchases and amounts of $3.6 million and $13.9 million on
DTIC’s FY 2007 and FY 2008 spreadsheets, “All Other Directorates Unfunded
Investment Opportunities (UIO),” may represent additional overcharges. DTIC officials
confirmed that the spreadsheets represented purchases for all other directorates.
However, because we performed a limited review, we did not test all purchases to
determine whether they had a significant relationship to the IACs.

DTIC augmented its budget by collecting fees for more than its actual costs and by not
returning surpluses to its customers at fiscal year-end. The U.S. Government
Accountability Office, Office of the General Counsel, “Principles of Federal
Appropriation Law,” third edition, volume II, February 2006 (Red Book), states that an

1
In 1998, DTIC was part of the Defense Information Systems Agency and received legal support from its
General Counsel office.


                                                  8

agency may not augment its appropriations from outside sources without specific
statutory authority. If an agency gets additional funding from another source without
specific statutory authority, it has more budget authority than the funding level Congress
appropriated for those purposes during that time. When an agency operates beyond its
appropriated funding level with funds derived from another source, the agency is
circumventing congressional budget controls. DTIC has been circumventing Congress’
role and budget controls by obtaining excess funds without congressional approval.

Recommendations, Management Comments, and Our
Response
A.1. We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer revise the DOD FMR, volume 11A, chapter 1, “General
Reimbursement Procedures and Supporting Documentation,” and chapter 3,
“Economy Act Orders,” to state when a DOD organization is permitted to charge
indirect costs to other DOD organizations.

Under Secretary of Defense Comptroller (Program/Budget)
Deputy Comptroller Comments
The Under Secretary of Defense Comptroller (Program/Budget) Deputy Comptroller
agreed with our recommendation. The Under Secretary of Defense Comptroller will
revise the DOD Financial Management Regulations to clarify when a DOD organization,
performing under Economy Act authority, is permitted to charge indirect costs to other
DOD organizations.

Our Response
The Under Secretary of Defense Comptroller (Program/Budget) Deputy Comptroller
comments are responsive and the actions meet the intent of the recommendations.

A.2. We recommend that the Under Secretary of Defense for Acquisition,
Technology, and Logistics:

       a. Require the Defense Technical Information Center to:

              (1) Develop, document, and implement a process for accumulating
actual indirect costs (overhead) incurred by its Information Analysis Centers.

           (2) Ensure the new process complies with DOD Regulation 7000.14-R,
“DOD Financial Management Regulation,” volume 11A, chapter 1, “General
Reimbursement Procedures and Supporting Documentation,” and chapter 3,
“Economy Act Orders.”

              (3) Calculate a reimbursable fee rate at the beginning of each fiscal
year that recovers the Information Analysis Center directorate’s estimated actual
and indirect costs for the fiscal year.



                                             9


              (4) Periodically compare the collected reimbursable fees to the actual
costs incurred and determine whether any adjustments to the reimbursable rate are
necessary.

               (5) Return any fee surpluses to its customers at each fiscal year end.

             (6) Comply with DOD Instruction 4000.19, “Interservice and
Intergovernmental Support,” August 9, 1995, by not including indirect costs as part
of reimbursement charges to DOD organizations.

               (7) Ensure that the reimbursable fee purchases have a significant
relationship to providing the goods and services.

       b. Review Defense Technical Information Center’s:

               (1) Process for accumulating actual direct and indirect (overhead)
       costs incurred by its Information Analysis Centers to establish a
       reimbursable rate.

               (2) Process for determining whether reimbursable fee purchases have
       a significant relationship to providing the goods and services.

Principal Deputy, Defense Research and Engineering Comments
The Principal Deputy, Defense Research and Engineering, in coordination with the
Director, Acquisition Resources and Analysis, agreed with recommendation A.2.a and
A.2.b. The Director will require DTIC to establish an Information Analysis Center
Reimbursable Review Board (the Board). The Board will establish a process for creating
a reimbursable rate and will provide details and justification for the rate annually. The
Board will use the process annually to calculate the reimbursable rate. The Board will
periodically compare the collected reimbursable fees and the actual costs incurred, and it
will return surplus funds in alignment with multiyear Research Development Test and
Evaluation requirements. The Board will review items for allowability and assess the
relationship between the DTIC activities and the Information Analysis Center activities.
The Board will obtain written concurrence from the Office of Secretary of Defense legal
counsel that the plan is consistent with statutory and regulatory guidance. The Board
products will be approved by the Director of Defense Research and Engineering and the
Under Secretary of Defense Acquisition, Technology, and Logistics, and will be
coordinated as appropriate with the Under Secretary of Defense (Comptroller)/Chief
Financial Officer.

Our Response
The Under Secretary of Defense for Acquisition, Technology, and Logistics comments
are responsive and the actions meet the intent of the recommendations.




                                            10


Finding B. Reporting Reimbursable Fees
DTIC did not report reimbursables and reimbursable fees separately on any USD(C)/CFO
management reports for FY 2007 and FY 2008. This occurred because USD(C)/CFO
does not require DOD organizations with reimbursables to report reimbursable fees
separately. As a result, USD(C)/CFO was unaware that DTIC had collected
approximately $31.8 million and $43.1 million in reimbursable fees for FY 2007 and
FY 2008, respectively. In addition, the USD(C)/CFO is unable to perform management
oversight and make informed budget decisions.

Criteria
Office of Management and Budget (OMB) Circular A-11, “Preparation, Submission, and
Execution of the Budget,” November 14, 2008, provides guidance for agencies in
preparing and submitting their budget. DOD FMR, volume 2A, “Budget Formulation
and Presentation,” implements the OMB guidance on formulating and submitting budget
requests to the Secretary of Defense for review, presentation, and justification of DOD’s
program and budget requests submitted to Congress.

Reporting of Reimbursable Fees
DTIC did not report reimbursables and reimbursable fees separately on any USD(C)/CFO
management reports for FY 2007 and FY 2008. DTIC reimbursables in FY 2007 and
FY 2008 was $873 million and $1.1 billion, respectively (as shown in the figure on
page 3). DTIC reimbursable fees in FY 2007 and FY 2008 were $31.8 million and
$43.1 million, respectively. Table 5, on the following page, provides the amount of fees
DTIC collected in FY 2007 and FY 2008, from DOD and other organizations.




                                           11


              Table 5. Reimbursable Fees DTIC Collected From DOD
                          and Other Defense Organizations
                    Organization          FY 2007        FY 2008
              Army                        $8,296,067     $9,881,247
              Navy                         6,890,956      7,031,105
              Air Force                    7,415,523      6,296,097
              NSA                            150,247      1,038,909
              Marine Corps                   683,114        908,504
              DISA                           633,396        722,472
              Joint Staff                    336,545        685,876
              Coast Guard                    196,277        626,882
              DTRA                           158,853        230,939
              OSD                             67,478        216,306
              Other DOD                    5,210,638     12,727,360
              Other Government and
              Industry                     1,735,633      2,689,123
              Total                      $31,774,727    $43,054,820

DTIC reported its reimbursables on the President’s Budget. However, the President’s
Budget is at the budget account level only, which is a higher-level presentation of
summary data. Although DTIC’s reimbursable fees are included within the
reimbursables total in the President’s Budget, they are not presented separately.
Therefore, DTIC’s reimbursables and reimbursable fees are not readily visible as separate
data.

This occurred because USD(C)/CFO does not require DOD organizations with
reimbursables to report reimbursable fees separately. Specifically, neither OMB Circular
A-11 nor DOD FMR, volume 2A requires DOD to report reimbursable fees separately.
The USD(C)/CFO should require DOD organizations to report reimbursable fees
separately from reimbursables.

Visibility of Reimbursable Fees
USD(C)/CFO was unaware that DTIC had collected approximately $31.8 million and
$43.1 million in reimbursable fees for FY 2007 and FY 2008, respectively. In addition,
the increase in reimbursable fees from $10 million in FY 2005 to $43.1 million in
FY 2008 went unnoticed. Furthermore, the increase of DTIC fees from 19.1 percent of
DTIC total funding in FY 2005 to 44.9 percent in FY 2008 also went unnoticed.
As a result, the USD(C)/CFO lacked the necessary data to perform management
oversight and make informed budget decisions. If USD(C)/CFO had required the
reporting of reimbursable fees, it would have detected these unusual conditions and
alerted DOD management. USD(C)/CFO officials stated that their office relies on the
Under Secretary of Defense for Acquisition, Technology, and Logistics to monitor DTIC
reimbursable fees and to ensure that DTIC acts in accordance with the Economy Act.


                                           12


The USD(C)/CFO should require reimbursable fees to be reported separately and should
monitor DOD organizations reimbursable fees for unusual activity and trends.

Recommendations, Management Comments, and Our
Response
B. We recommend that the Under Secretary of Defense (Comptroller)/DOD Chief
Financial Officer:

      1. Require DOD organizations to report reimbursable fees separately from
reimbursable authority.

      2. Monitor the Defense Technical Information Center reimbursable fees for
unusual activity and trends.

Under Secretary of Defense Comptroller (Program/Budget)
Deputy Comptroller Comments
The Under Secretary of Defense Comptroller (Program/Budget) Deputy Comptroller
agreed with recommendation B.1. The Deputy Comptroller will revise the DOD
Financial Management Regulations to require organizations to report reimbursable fees
within reimbursable authority.

The Under Secretary of Defense Comptroller (Program/Budget) Deputy Comptroller
agreed with recommendation B.2. The Deputy Comptroller will review the Information
Analysis Center Reimbursable Review Board reimbursable fee rate calculation and the
periodic comparison of collected reimbursable fees to actual costs as required by
recommendation A.2.a.(3) and A.2.a.(4).

Our Response
The Under Secretary of Defense Comptroller (Program/Budget) Deputy Comptroller
comments are responsive and the actions meet the intent of the recommendations.




                                          13


Finding C. Reporting Information Technology
Expenditures
DTIC did not report IT expenditures made with reimbursable fees in the Select and
Native Programming Information Technology System (SNaP-IT). This occurred because
SNaP-IT does not allow users to report IT spending funded by reimbursable fees. As a
result, DOD and OMB cannot review and evaluate DTIC’s IT spending and compare it
with other Federal agencies.

Reporting Information Technology Expenditures
DTIC did not report IT expenditures made with reimbursable fees in SNaP-IT. 

For example, in FY 2007 DTIC did not report $353,000 in costs to acquire local area 

network equipment. In FY 2008, DTIC did not report $100,000 in server acquisition 

costs in SNaP-IT. 


OMB Circular A-11, “Preparation, Submission, and Execution of the Budget,” 

November 14, 2008, requires agencies to report all IT investments. These include the 

total investment costs of the entire risk-adjusted life cycle of each system and include all 

budgetary resources. This allows OMB and an agency to review and evaluate the 

agency’s IT spending and to compare IT spending across the Federal Government. 

DOD FMR, volume 2B, chapter 18, “Information Technology,” implements OMB 

Circular A-11. 


DOD uses SNaP-IT to implement OMB’s reporting requirements. Specifically, DOD 

FMR, volume 2B, chapter 18 states that Assistant Secretary of Defense (Networks and 

Information Integration)/Chief Information Officer, Deputy Assistant Secretary of 

Defense (Resources) uses SNaP-IT to collect IT expenditure data and generate reports 

mandated by OMB and Congress. The Deputy Assistant Secretary (Resources) is 

responsible for SNaP-IT. The system is a database application used to plan, coordinate, 

edit, publish, and disseminate IT budget justification books required by OMB and 

Congress. SNaP-IT generates all forms, summaries, and pages used to complete the 

publishing of the IT Congressional Justification materials and OMB submissions. 


However, SNaP-IT does not allow users, such as DTIC, to report IT spending funded by 

reimbursable fees. Therefore, some IT expenditures are not counted and reported to 

OMB. As a result, DOD and OMB cannot review and evaluate DTIC’s IT spending and 

compare it with IT spending across the Federal Government or provide a full and 

accurate accounting of agencies’ IT investments. 





                                             14


Recommendations, Management Comments, and Our
Response
C. We recommend that the Assistant Secretary of Defense (Networks and
Information Integration), revise the Select and Native Programming Information
Technology System to allow the reporting of information technology expenditures
funded with reimbursable fees.

Assistant Secretary of Defense (Network and Information
Integration)
The Acting Assistant Secretary of Defense (Network and Information Integration)/Chief
Information Officer agreed with our recommendation. The Acting Assistant Secretary
concurred that DTIC did not report information technology purchases made with
reimbursable funds in the Select and Native Programming Information Technology
System. The Acting Assistant Secretary will conduct a study to determine the extent to
which DOD organizations purchase information technology using reimbursable fees and
are not reported to the Office of Management and Budget. If the amount of information
technology purchased is immaterial, then a waiver from the Office of Management and
Budget will be requested. If the amount is significant, then an appropriate process will be
implemented to ensure the information technology purchases are reported.

Our Response
The Acting Assistant Secretary of Defense (Network and Information Integration)/Chief
Information Officer comments are responsive and the actions meet the intent of the
recommendation.




                                            15


Appendix. Scope and Methodology
We conducted this review from February 2009 through September 2009 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform our work to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on the objectives. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusions
based on the objectives.

We limited our review to substantiating the validity of the whistleblower allegations at
DTIC during FY 2007 and FY 2008. To substantiate this, we performed procedures such
as the following.

   		 We reviewed
         o		 the February 3, 2009, OSC letter to the Secretary of Defense and its
             attachments;
         o		 the Economy Act, OMB guidance, and DOD FMR;
         o		 the list of reimbursable revenue and fees we received from DTIC; and
         o		 DTIC procedures for calculating the reimbursable fee rate.

   		 We interviewed the DTIC whistleblower to better understand the allegations and
       DTIC operations.

   		 We non-statistically sampled and analyzed IAC fee expenditures for FY 2007 and
       FY 2008 to determine whether the DTIC purchases had a significant relationship
       to the IACs. Our analysis included interviewing DTIC management and staff to
       verify the purpose of the hardware, software, or service contract they purchased to
       determine whether it had a significant relationship to the IACs. We also verified
       the existence of the sampled purchases.

   		 We met with the USD(C)/CFO staff to determine whether DTIC reported the
       reimbursable fees on the DOD Budget Estimate Submission and President’s
       Budget.

   		 We met with the Assistant Secretary of Defense (Networks and Information
       Integration)/Chief Information Officer, Deputy Assistant Secretary of Defense
       (Resources) staff to determine whether DTIC reported IT expenditures on SNaP-
       IT.

Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.




                                           16


Director of Defense Research and
Engineering

                  D1RECTOR OF DEFENSE RESEARCH AND ENG 1NEERING
                                          3040DE:FE:NSE PE:N T AGO N
                                        W ASI-I INGTON . DC 20301·3040


                                                                                      SEP 1 7 1009

    MEMORANDUM FOR ASSISTANT INSPECTOR GENERAL DEPUTY INSPECTOR
                                     GENERAL FOR AUDITIN G, DE FENSE BUStNF.SS
                                     OPERATIONS

    TIfROIJGH: DIRECTOR. ACQmSTTION RESOURCES AND ANALYSIS                                    ~\%\oq
    SU I3JECT: Response 10 Don 10 Dra ft Report on Review of Defense T echnical
                   Informacion Center Intemal Controls (Project No. D2009-DOOOFP-O 158.000)

         As rc:que sted. J am providing responses to the g~nera l content and
    recommendations containt:t.l in the su bject rc:port.

    Recommendatio n A.2.1I :

     We recommend that the Undcr Secretary of lkfense for Acquisition. Technulogy, lIfId Log istics:

        a.   R~ui re   the Defense: Teehnieal laformation Center 10:

               ( I ) Develop, document, and implemen t II process fOT aeeutnularing actual indirect costs
                     (overhead) incurred by it~ Infonnation Analysis Centers.
               (2) Ensure the ne ..... pnx;c,ss oomplic9 wi lb DOD Regulation 7000.14-R. "DOD
                     Financial Managcmcm Regulali nn," volume I I A, thapter 1, "General
                     Reimbursemenl Procedures and Supporting Documcntation." and cbapler J.
                     "E.toDomy Ac[ Orders."
               (J) Calculate a rt imbW'Sable fee rale althe beginning of eac::b fiscal year that recovers
                     the Infonnation Analysis Cenler di rc.:tClrale·s estima1C:d attual and indiTct l costs
                     for the fiscal )'llar.
               (4) Perioditally compare the collected rcimbursahle fees to the IIttuai co~ts incurred
                     and determine whether any adjuS1mertts 10 the reimbursabl e rate are nec::e~sary .
               (5) Return ilIly fce surpluses to ils customers at each fistal year end.
               (6) Comply with DOD Instruction 4000.19, "lnlersen:icc and Ln~rgove mrnental
                     Suppon, " AugUSt 9, 1995, by nOI including indiTecl costs as part of reimbursemcnt
                     charg~ to DOl) organizations.
               (7) Ens~ thallhe reimbursable fee puTcha.'IC1; have a significant re1.;,t ionsbip to
                     providing the goods and ~iccs.

    RespOD§e:
    Concur.

        o    O SO AT&LJDDR&E wi ll rcqu ire OTIC establ ish an annuaJ lAC Re imbursable
             Review RUII.l"d. The product! required of that board will be approved by OSD
             AT&LIDDR&E and C<lordinaled as appropriate with Comptroller.




                                                      17


   o TIla! board will:

         o Establish a process for creatioo of fh:ed reimbUf3t1ble rates forthe lACs,. to
           be applied to allowable items and provide detail!t and justification for the
           rate annually.
         o Obtain wriuen concurrence from 080 legal counsel thaI th e plan is
           consistent with statutory and regulatory guidance.
         o Utilize tbe process created above for cstabLishment of fixed reimbursable
           rates for tbe lACs to ealculat." the rate annuaUy.
         o Establish a timeline each year for assessmt:nt and documcntation provided
           to OSO AT &LlDDR&E of the comparison lor collccted reimbursable fees and
           actual costs intUITed.
         o Pro"ide to OSD AT&UDUR&E plans for de{emtinaLion and reruro of surplu.~
           Cunds in alignmellt ....ith multi.year RDT&E roqui..rement.s.
         o OSD AT&LIDOR&E will coordinate with Comptroller a rev iew nf
           budgt:ling method models fo r OTIC and the lACs, including direct funding
           and working capital funds among others. This will ~sUJe thaI the most
           effective strucrure is in place for the eurreol UUssion nf the organization,
           complying with all existi ng laws and regulations.
         o Review items for allowllbility and annually asses~ the relationsh ip between
           core and lAC act ivi ties.
         o We believc the additional persOMel necl:S!i3l)' for admio.istnllioa of these
           procedures are di rect support of the lAC missioD and will be 100% funded
           by reimbursab.le fccs.

RecommendatioD A.2.b:

   b. Review Defense Tcchnical lnfonnation   Ccn~'s:


        (I) PrGc;eSS for accumulating actual direct and indireet (overht:ad) com incUTTCd by its
            lnfonnation Analysis Centers Lo cshlblish a rc:imburSllble rate.
        (2) Pro~cSS for determining whether reimhursab\e fee purciJases have a significnnt
            re\lltinn~hip 1.0 providing Iht Kl)Ods and services.


R esponse:
Concur.

   o OSD AT&LI DDR&E will require OTIC establish an lAC Reimbursable Review
     Buard as noted above. The products required of that board will be approved by
     OSD AT &L/ODR&E and coordinaTed as appropri ate with Compuoller.
   o In response 10 Ihe overall assessment during the review process, and in light of
     OTIC's significant growth over the last S years, OSO AT&TJT)OR&E"iIl req ucst


                                              2




                                             18


       General Counsel provide dedicated legal oounselto ensure alignment with all
       existing laws and regulations.

       Please oont.et • • •I1~         ••••••••••••••• if
additional infonnation is required .




                                         Principal Deputy



  cc : ()lD (C)      [;rt"~<\"J
      /I :'OltJ:iT   C£~i1*-SI )1




                                            3




                                            19


Under Secretary of Defense Comptroller
(Program/Budget) Deputy Comptroller

                       OFFICE OF THE UNDER SECRETARY OF DEFENSE
                                      1 100 DEFENSE PENTAGON
                                     W.o,SHINGTQN . DC 20301 · 1 100




                                                                              S[P 2 3 2009
 (Program/Budget)

         MEMORANDUM FOR INSPECTOR GENERAL, DEPARTMENT OF DEFENSE

         SUBJECT:     Review of Dcfense Technical Information Center (OTIC) Internal Controls
                      (Project No. D2009-DOOOFP-O I 58.000)

                Comments on the draft report recommendations requiring comment by the Office
         of the Under SC(;rctary of Defcnse (ComptrollerYOOD Chief Financial Officer
         (OUSD(C)fDCFO) arc provided.

         REC OMMENDATION A I : Revise the 000 FMR, Volumc IIA, Chapter I , "General
         Reimbursement Procedures and Supporting Documentation;· and chapter 3, "Economy
         Act Orders:· to state when a 000 organization is permitted to charge indirect costs to
         other DOD organi7.ations.

         DoD RESPONSE: Concur. The OUSD(C) will update Chapters I and 3 of the DoD
         FMR to clarify when a DoD organization, performing under the Economy Act authority,
         is permitted to charge indirect costs to another 000 organization.

         RECOMMENDATION 8 1: Require DoD organizations to report reimbursable fecs
         separately from reimbursablc authority.

         DoD RESPONSE: Concur. The OUSD(C) will update the 0 00 FMR to require
         organizations 10 report reimbursable fecs wilhin reimbursablc aUlhorily.

         RECOMMENDATION 82: Monitor the Defense Teehnicallnformation Center
         reimbursable fees for unusual activity and trends.

         DoD RESPONSE : Concur. The OUSD(C) Comptroller will revicw Ihe calculation and
         comparison repons as requ ired in recommendation A.2.3 and A.2.4. as prepared by the
         DTIC.




                                                     20


Assistant Secretary of Defense (Networks
and Information Integration)

                            ASSISTANT SECRETARY OF DEFENSE
                                      eoooOEFENSE PENTAGON
                                    WASHINGTON . DC 20301-6000




      MEMORANDUM FOR ASSISTANT INSPECTOR GENERAL DEPUTY INSPECTOR
                     GENERA L FOR AUD IT ING, DEFENSE BUSINESS
                     OPERATIONS

      SUBJ ECT: Response to Revi ew of Whistleblower Disclosure Regarding the DoD
                Defense Technic al Information Center (Project No. D2009-DOOOFP·
                  OISS'cXlO)

              AS requested, I am providing a response to the recommendation for Finding C in
      the subject report.

      Recommend ation for Find ing C:
              We recommend that the Assistant Secretary of Defense (Networks and
      Information Integration). revise the Select and Native Programming Information
      Technology System to allow the reporting of information technology expenditures funded
      with reimbursable fees.

      Respon~ :
              The ASD (N U)/DoD Chief Information Officer (C IO) concurs that OTIC did nOi
      report IT purchased with reimbursable funds in SNAP-IT. However, it is possible that
      reimbursable funds provided to DTIC were reported by the DoD Component in SNAP­
      IT. as part of that Component's IT submission. The ASD(NJI)IDoD CIO will conduct a
      study to determine the extent to which Defense Agencies purchase IT using reimbursable
      dollars and are not reported to OMB. If the amount of IT purchased is immaterial, then a
      waiver from OMB will be requested. If the amount is significant. an appropriate process
      to ensure re porting will be implemented.

             ASD (N II)IDoD CIO strongly endorses the proposal from the Under Secretary of
      Defense for Acquisition, Technology and Logistics (US D(A T&L». as outlined in their
      response to Recommendation A2.a, to establish a OTIC Information Analysis Cenlers
      (lAC) Reimbursable Review Board for the costs incurred by the lACs. This review
      board will provide a written report to OSD AT&UDDR&E for review and will capture
      expenditures from reimbursable funding on all actions undertaken by DTIC, includin g
      any necessary IT items.




                                                 21

MypointorofviaCOntact        ;'~',,~,;~O;"~;':====~•• He can
                      for thh~
                e-mail at • :
                                                               be reached at




                               Acting




                                 22

